     Department of Homeland Security

     ��������������������������



        CBP Use of Force Training and Actions 

          To Address Use of Force Incidents 


                       (Redacted)





OIG-13-114 (Revised)                   September 2013

                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                                Washington, DC 20528 / www.oig.dhs.gov



                                    September 12, 2013

MEMORANDUM FOR:               Thomas S. Winkowski
                              Deputy Commissioner
                              Performing the duties of the Commissioner of CBP
                              U.S. Customs and Border Protection

FROM:                         Charles K. Edwards
                              Deputy Inspector General

SUBJECT:                      CBP Use of Force Training and Actions To Address Use of Force
                              Incidents – Redacted (Revised)

Attached for your action is our revised final report, CBP Use of Force Training and Actions To
Address Use of Force Incidents – Redacted (Revised), OIG-13-114. We incorporated the
formal comments from U.S. Customs and Border Protection in the final report. This revised
version is redacted due to deliberative material.

The report contains three recommendations aimed at improving the U.S. Customs and
Border Protection Office of Training and Development and the Office of Internal Affairs.
Your office concurred with all of the recommendations. Based on information provided in
your response to the draft report, we consider the three recommendations resolved. Once
your office has fully implemented each recommendation, please submit a formal closeout
letter to us within 30 days so that we may close the recommendation. The memorandum
should be accompanied by evidence of completion of agreed-upon corrective actions.

Please email a signed PDF copy of all responses and closeout requests to
OIGInspectionsFollowup@oig.dhs.gov.

Consistent with our responsibility under the Inspector General Act, we are providing copies
of our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post a redacted version
of the report on our website.

Please call me with any questions, or your staff may contact Deborah Outten-Mills, Acting
Assistant Inspector General for Inspections, at (202) 254-4015.

Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security



   Table of Contents
   Executive Summary ............................................................................................................ 1 


   Background ........................................................................................................................ 2 


   Results of Review ............................................................................................................... 5 


              Excessive Use of Force Allegations and Investigations Were Not Identified in
              Case Management Systems ................................................................................... 5
              Recommendation ................................................................................................... 8

              Workforce Surge Did Not Affect Use of Force Training ......................................... 8 


              CBP Has Acted to Address Use of Force Incidents; More Can Be Done .............. 11 

              Recommendations ..........................................................................................15, 18 


              Polygraphs Improve Quality of Workforce .......................................................... 21 


              Management Comments and OIG Analysis ......................................................... 21 


   Appendixes
              Appendix A:          Objectives, Scope, and Methodology ............................................ 24 

              Appendix B:          Management Comments to the Draft Report ............................... 25 

              Appendix C:          Major Contributors to This Report ............................................... 28 

              Appendix D:          Report Distribution ........................................................................ 29 


   Abbreviations
              CBP                   U.S. Customs and Border Protection
              DHS                   Department of Homeland Security
              EDS                   Enterprise Data System
              FY                    fiscal year
              ICE                   U.S. Immigration and Customs Enforcement
              JICMS                 Joint Intake Case Management System
              OAM                   Office of Air and Marine
              OBP                   Office of Border Patrol
              OFO                   Office of Field Operations
              OIA                   Office of Internal Affairs


www.oig.dhs.gov                                                                                                               OIG-13-114
                     OFFICE OF INSPECTOR GENERAL
                         Department of Homeland Security


           OIG    Office of Inspector General
           OPR    Office of Professional Responsibility
           OTD    Office of Training and Development
           PBS    Public Broadcasting Service
           PERF   Police Executive Research Forum
           UFPD   Use of Force Policy Division
           UFRS   Use of Force Reporting System




www.oig.dhs.gov                                            OIG-13-114
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Executive Summary
   Following April 2012 media reports regarding the death of an undocumented immigrant
   while in the custody of U.S. Customs and Border Protection (CBP) in May 2010, Senator
   Robert Menendez and 15 members of Congress requested that we review the use of
   force within CBP. We reviewed allegations of the use of excessive force by CBP
   employees and determined what reforms CBP has implemented. We also examined
   what effect adding more agents and officers to the workforce has had on training and
   professionalism.

   Allegations of employee misconduct that are entered into Department of Homeland
   Security (DHS) case management systems are assigned one of several case allegation
   types; however, there is no primary use of force designation. As a result, we were
   unable to identify the total number of excessive force allegations and investigations
   involving CBP employees.

   The August 2006 to December 2009 workforce surge within CBP did not negatively
   affect use of force training within CBP. Use of force training remained consistent and
   funding for use of force training increased at the basic training academies. Pre­
   employment polygraph examinations have improved the quality of the CBP workforce.

   CBP has taken several steps to address the number of use of force incidents involving
   CBP employees and to ensure that agents and officers use force only when necessary
   and reasonable. All CBP law enforcement agents and officers are required to follow the
   same use of force policy and standards and complete the same use of force training.
   CBP tracks all use of force incidents and recently completed an internal review of use of
   force issues.

   However, more can be done. The CBP Office of Training and Development Use of Force
   Policy Division should incorporate additional assault data into its analysis of use of force
   incidents and formalize and expand its field audit program. CBP should continue to
   expand the use of scenario-based training and assess new technologies to support
   agents and officers.

   We are making three recommendations. CBP should work with U.S. Immigration and
   Customs Enforcement (ICE) to implement a method to identify excessive force
   allegations in its case management system, develop processes to incorporate
   information regarding assaults on agents that do not result in the use of force into its
   analysis of use of force incidents, and evaluate and act upon field audit results. The DHS
   Office of Inspector General (OIG) will modify its case management system to identify in
   greater detail incidents involving excessive use of force allegations.


www.oig.dhs.gov                                 1                                        OIG-13-114
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Background
   In April 2012, the Public Broadcasting Service (PBS) aired a report regarding the death of
   a person while in the custody of CBP in May 2010. This incident and others raised
   concerns regarding use of force training and accountability within DHS and CBP. U.S.
   Senator Robert Menendez and 15 members of Congress requested that we review the
   use of force within CBP.

   Use of Force

   CBP’s policies and procedures for use of force describe the amount of force that is
   reasonable and necessary for a law enforcement agent or officer to use when
   compelling an unwilling subject to comply with lawful commands. Reasonable means
   there are objective reasons that justify the level of force used in a given situation, up to
   and including deadly force. Necessary means that some force is required in the
   situation to carry out law enforcement duties. Force would be deemed excessive if it
   were later determined to have been either unnecessary or unreasonably forceful.

   The CBP Use of Force Continuum describes the levels of force an agent or officer may
   need to use to gain control over a subject. At the lowest level on the continuum, officer
   presence and spoken commands are sufficient when a subject is cooperative. If a
   subject does not comply with spoken commands or is passively resisting, the agent or
   officer may need to use physical contact techniques, such as strategic positioning or
   pressure point stimulation, to gain compliance. If a subject actively resists an agent’s
   efforts to gain control or assaults or displays a willingness to assault an agent or officer,
   the agent or officer would use escalating, less-lethal force options to compel
   compliance. For example, agents and officers could use oleoresin capsicum (pepper
   spray) or an electronic control device, or taser, against an actively resistant subject and
   could also use a collapsible straight baton (baton) if the subject becomes assaultive. An
   agent or officer is authorized to use the highest level, deadly force, only when the agent
   or officer believes the subject poses an imminent danger of death or serious physical
   injury to the agent or officer or another person, and the subject has the opportunity,
   ability, and intent to do so.

   In determining the appropriate level of force, CBP trains its law enforcement officers to
   consider the totality of the circumstances in each situation. This training includes: the
   level of training, mental attitude, strength, age, and size of the officer; size of the
   subject; the subject’s actions; weapons involved; presence of other officers; number of
   subjects present; bystanders; and environmental conditions. Generally, the officer
   should use the lowest level of force necessary to control the situation. Because of
   unique circumstances and individual differences in every potential confrontation,


www.oig.dhs.gov                                  2                                        OIG-13-114
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   different officers might have different responses to the same situation, all of which may
   be reasonable and necessary.

   Rapid Surge of CBP Workforce

   In May 2006, the President mandated that CBP add 6,000 new Border Patrol Agents by
   December 2008. CBP increased the number of Border Patrol Agents by more than 50
   percent from August 2006 through December 2009 (see table 1). During the same time
   period, the number of CBP officers also increased.

                  Table 1: Number of Border Patrol Agents and CBP Officers

                                      FY 2006–FY 2012

                   Fiscal Year       Total OBP          Total OFO         Total CBP
                      2006               12,349             17,733            30,082
                      2007               14,923             18,272            33,195
                      2008               17,499             19,568            37,067
                      2009               20,119             21,103            41,222
                      2010               20,558             20,455            41,013
                      2011               21,444             20,379            41,823
                      2012               21,394             21,790            43,184
                  Source: CBP Office of Border Patrol (OBP) and Office of Field Operations (OFO).

   As the number of agents and officers increased, the number of supervisory agents and
   officers also increased proportionately. Within the Office of Border Patrol (OBP),
   supervisory agents accounted for 17 percent of all agents from fiscal year (FY) 2006–FY
   2007, 18 percent from FY 2008–FY 2009, and 19 percent from FY 2010–FY 2012. Within
   the Office of Field Operations (OFO), supervisory officers accounted for 13 percent of all
   officers from FY 2006–FY 2011 and 14 percent in FY 2012.

   Operational Environment

   CBP agents and officers operate in a variety of border environments and conditions.
   CBP officers operate at land, air, and sea ports of entry, which are largely controlled
   environments due to designated lanes and processing areas. CBP officers generally
   work in teams or in close proximity to other officers, with backup readily available
   should it be needed. Border Patrol Agents operate between ports of entry along U.S.
   borders. The terrain along U.S. borders varies greatly, ranging from dense forests and
   open plains along the northern border to open deserts, rugged mountains, the Rio
   Grande River, and coastal waters along the southern border. Border Patrol Agents often
   patrol alone; the nearest agent could be 10 to 20 miles away.



www.oig.dhs.gov                                     3                                               OIG-13-114
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   DHS has completed the construction of more than 600 miles of fencing and has installed
   surveillance technology to detect and inhibit illegal border crossings into the United
   States. This has limited the areas along the southwest border where illegal border
   crossers attempt to enter the United States and has increased the chance they will be
   intercepted by the Border Patrol. Violent assaults against Border Patrol Agents rose to a
   peak in 2010, and have diminished since then.

   CBP began tracking assaults on Border Patrol Agents in 2006. Assault information is
   reported in the Assault Module of the CBP e3 system. The e3 system is used to record,
   transmit, and retrieve information for CBP enforcement purposes, such as biographic
   and property information. The system also captures or verifies biometric information of
   apprehended individuals.

   From FY 2006 to FY 2012, 99 percent of assaults on Border Patrol Agents occurred along
   the southwest border of the United States (see table 2).

                   Table 2: Assaults on Border Patrol Agents, FY 2006–FY 2012

                  Fiscal     Southwest          Northern      Coastal
                  Year         Border            Border       Border        Total
                  2006               729                16              7       752
                  2007               979                 6              2       987
                  2008             1,085                10              2     1,097
                  2009             1,031                11              6     1,048
                  2010             1,050                10              2     1,062
                  2011               678                 2              7       687
                  2012               543                 6              0       549

                  Total              6,095               61         26        6,182
              Source: CBP Office of Border Patrol.




www.oig.dhs.gov                                      4                                OIG-13-114
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Results of Review
   Information regarding complaints of employee misconduct, and any subsequent
   investigative activity, is tracked and maintained in case management systems. Although
   these systems include a data field that assigns specific types of misconduct, such as
   excessive force, discrimination, abuse of authority, and other categories, to a primary
   allegation type, there is no primary use of force allegation designation. As a result, we
   were unable to determine the total number of excessive force allegations and
   investigations involving CBP employees.

   We determined that use of force training before and during the workforce surge
   remained consistent. Funding at the basic training academies increased in proportion to
   the increase in trainees. The implementation of polygraph examinations for all
   prospective law enforcement agents and officers prior to being hired has improved the
   quality of the CBP workforce by detecting unsuitable candidates who might otherwise
   have been selected.

   To address use of force incidents involving CBP employees and to ensure that agents
   and officers use force only when necessary and reasonable, CBP has (1) completed an
   internal review of use of force issues; (2) begun tracking all use of force incidents; (3)
   improved consistency in training for agents and officers, and the application of use of
   force standards and policies; (4) initiated a field audit program to evaluate use of force
   training across CBP field locations; and (5) commissioned an independent review of use
   of force by the Police Executive Research Forum (PERF).

           Excessive Use of Force Allegations and Investigations Were Not Identified in
           Case Management Systems

           The DHS OIG Hotline and the Joint Intake Center receive complaints about
           employee misconduct that include allegations of excessive force, discrimination,
           off-duty arrests, abuse of authority, and others. We attempted to obtain
           information that would enable us to analyze and summarize excessive force
           investigations involving CBP employees. Allegations entered into DHS case
           management systems are assigned one of several case allegation types;
           however, there is no primary use of force designation. As a result, we were
           unable to identify the total number of excessive use of force allegations and
           investigations involving CBP employees.




www.oig.dhs.gov                                 5                                       OIG-13-114
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Documenting Allegations of Excessive Force

           The OIG Hotline and the Joint Intake Center, operated by CBP and ICE, receive
           allegations of misconduct by DHS employees, including allegations that CBP
           employees have used excessive force. Hotline and Center staff enter the details
           into their respective case management system—the Enterprise Data System
           (EDS) or the Joint Intake Case Management System (JICMS).

           No matter to which of the two offices the allegation was addressed, the OIG
           Office of Investigations first has the option to investigate or decline to
           investigate an allegation. If OIG declines, the ICE Office of Professional
           Responsibility (OPR) and then the CBP Office of Internal Affairs (OIA),
           respectively, decide whether to investigate. Many allegations are determined to
           be administrative—non-criminal misbehavior—and are referred to management
           for action.

           Each allegation is assigned to a primary category; however, neither case
           management system has a primary category that designates an allegation as use
           of force. In JICMS, excessive use of force allegations are assigned to primary
           categories to include detainee/alien (physical abuse), detainee/alien abuse
           (other), detainee/alien abuse (medical issue), and death-detainee/alien/civilian
           (result of agency action). In EDS, primary categories for use of force allegations
           include civil rights/civil liberties or miscellaneous. In addition to a primary
           category, OIG also identifies a secondary type of allegation. While one
           secondary allegation type is “use of force,” and includes some excessive force
           allegations, other excessive force allegations are designated as
           detainee-/prisoner-/suspect-related abuse, criminal misconduct, or non-criminal
           misconduct. In addition, we identified allegations that were placed improperly
           in the secondary use of force allegation type.

           To determine the universe of excessive force investigations involving CBP
           employees, we received data sets from OIG and JICMS that included more than
           21,000 records of possible excessive force allegations. Because excessive force
           allegations are assigned to multiple categories, the narrative in each allegation
           summary must be reviewed to determine whether it was an excessive use of
           force allegation.

           Of the more than 21,000 records that we received, we reviewed the allegation
           summary field for the 2,093 records from JICMS data—excessive force and abuse
           allegations and intentional discharge of weapon. This included 1,896 records
           from FYs 2007 through 2012 in the excessive force and abuse data. We
           identified 1,187 of these records as possible allegations related to excessive


www.oig.dhs.gov                                 6                                      OIG-13-114
                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           force (see figure 1). The allegations also included physical abuse (punching,
           kicking, and pushing) during apprehension, and use of an electronic control
           device, baton, or pepper spray.

           We identified 205 records as not being excessive force allegations, such as claims
           of improper detention, racial profiling, and initial allegations that were later
           recanted. For 504 records, we were unable to conclude that they were excessive
           use of force allegations based on information in the allegation summary field.
           Types of information in these summary fields included alleged civil rights
           violations and physical abuse.


                                      Figure 1: Excessive Force Allegations
                                                FY 2007–FY 2012

                                      11% (205)




                     26% (504)
                                                                                         63% (1,187)




                                                                                   Total = 1,896


                         Possible Excessive Force   Inconclusive Excessive Force   Not Excessive Force


                   Source: CBP Office of Internal Affairs, JICMS.

           We also reviewed the allegation summary field of 197 records from FY 2009–FY
           2012 for intentional discharge of weapon data, and identified 136 possible use of
           force incidents involving the discharge of a weapon (see figure 2). We were not
           able to determine whether 39 of these records were use of force incidents and
           concluded that 22 were not use of force incidents.




www.oig.dhs.gov                                       7                                                  OIG-13-114
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


                                  Figure 2: Intentional Discharge of Weapon
                                             Use of Force Incidents
                                                FY 2009–FY 2012
                                     11% (22)



                      20% (39)


                                                                                        69% (136)


                                                                                     Total = 197


                             Possible Use of Force   Inconclusive Use of Force   Not Use of Force


                   Source: CBP Office of Internal Affairs, JICMS.

           CBP OIA officials suggested that a new field to indicate whether an allegation
           involves use of force should be added to JICMS. However, JICMS is an ICE
           computer system. CBP officials raised the issue with ICE in April 2013 and told us
           that they are continuing to work with ICE to develop an indicator. We concur
           with the proposed addition of a use of force indicator field to JICMS. Also, we
           have asked the OIG Office of Investigations to modify its case management
           system to identify in greater detail incidents involving use of force allegations.
           The OIG Office of Investigations will do so.

           Recommendation

           We recommend that U.S. Customs and Border Protection:

           Recommendation #1:

           Work with ICE to implement a method in JICMS to identify each use of force
           allegation involving an officer or agent.


           Workforce Surge Did Not Affect Use of Force Training

           The August 2006 to December 2009 workforce surge within CBP did not
           negatively affect use of force training within CBP. Use of force training content
           and hours remained consistent, and funding for use of force training increased at


www.oig.dhs.gov                                      8                                              OIG-13-114
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           the basic academies. Since October 2010, all CBP law enforcement agents and
           officers receive quarterly firearms and less-lethal device training.

           Use of Force Training at Basic Academies

           Agents and officers receive use of force training as part of their basic academy
           training to become Border Patrol Agents or CBP officers. Use of force training at
           the basic academies includes instruction in firearms proficiency and judgment
           shooting, threat assessment and response, the use of force continuum, use of
           force legal authorities, physical techniques, baton certification, and pepper spray
           certification. Since 2010, CBP officer trainees also complete taser certification
           during basic training.

           Use of force training at both basic training academies remained consistent
           throughout the workforce surge. While the number of trainees entering the
           basic academies increased in FY 2007, FY 2008, and FY 2009, the number of
           hours of use of force training these trainees received as part of their overall basic
           training was consistent. Given the larger number of agents and officers trained,
           funding for use of force training at the Border Patrol Academy and the Field
           Operations Academy increased during those years. Tables 3 and 4 illustrate the
           number of trainee entrants and graduates, use of force training hours, and
           funding for use of force training for each basic academy for FY 2005–FY 2012.

                  Table 3: Border Patrol Academy Use of Force Training FY 2005–FY 2012
             Fiscal     OBP Academy         OBP Academy         Use of Force      Use of Force
             Year      Trainee Entrants      Graduates         Training Hours   Training Funding
             2005                   926               734                 126             $872,113
             2006                 1,889             1,408                 126           $2,602,749
             2007                 3,912             3,060                 124           $5,154,947
             2008                 4,566             3,323                 124           $8,598,955
             2009                 4,861             3,582                 124          $11,136,797
             2010                 1,578             1,250                 124           $2,467,950
             2011                 1,745             1,394                 134           $3,533,881
             2012                   735               629                 134           $3,455,965
           Source: CBP OBP and Office of Training and Development (OTD).




www.oig.dhs.gov                                     9                                      OIG-13-114
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


              Table 4: Field Operations Academy Use of Force Training FY 2005–FY 2012

             Fiscal      OFO Academy       OFO Academy        Use of Force       Use of Force
             Year       Trainee Entrants    Graduates        Training Hours    Training Funding
             2005                  1,286           1,188                 155          $2,114,632
             2006                  1,368           1,232                 156          $2,043,193
             2007                  2,064           1,841                 156          $2,974,498
             2008                  2,823           2,563                 154          $3,753,624
             2009                  3,090           2,914                 154          $4,796,714
             2010                    142             117                 208            $792,327
             2011                    546             515                 212          $1,646,374
             2012                  1,229           1,156                 212          $4,097,704
           Source: CBP OFO and OTD.

           Use of Force Training Post-Basic Quarterly Use of Force Training

           Since October 2010, all CBP law enforcement agents and officers are required to
           qualify quarterly with their firearms and recertify annually with any less-lethal
           devices they are certified to carry, such as a baton, pepper spray, or taser. To
           achieve these requirements, agents and officers complete at least 16 hours of
           firearms training and 16 hours of less-lethal force training yearly, with 4 hours of
           each quarterly. Quarterly training includes—

                  1) Classroom instruction on either the firearm or a less-lethal device as well
                     as discussion of use of force policy and the use of force continuum;
                  2) A written exam;
                  3) Demonstration of proficiency with the firearm or less-lethal device; and
                  4) Demonstration of appropriate judgment in training scenarios.

           Prior to October 2010, CBP officers qualified only three times per year with their
           firearms. This requirement increased to quarterly with implementation of the
           unified CBP Use of Force Handbook in October 2010. A CBP official said the surge
           only improved training, resulting in more instructors and more training
           opportunities. For example, since 2010, all CBP officers become certified on the
           taser at their basic academy and must therefore recertify annually. Also, even
           though the workforce surge ended in 2009, the number of CBP agents and
           officers remains more than 43,000, so more agents and officers must complete
           quarterly training now and in the future, requiring more firearm and less-lethal
           force instructors.




www.oig.dhs.gov                                   10                                      OIG-13-114
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Instructor Training at CBP Advanced Training Center

           Firearm instructors and less-lethal force instructors complete instructor
           certification and recertification training at the CBP Advanced Training Center in
           Harpers Ferry, West Virginia. Certified instructors conduct quarterly use of force
           training for agents and officers in their areas of responsibility.

           All instructors are trained based on the same standard regardless of whether
           they work for OBP, OFO, or the Office of Air and Marine (OAM). Firearm and
           less-lethal force instructor trainees receive instruction on firearms or less-lethal
           devices in addition to how to run proficiency drills. They also become proficient
           in developing, running, and debriefing training scenarios. Both firearm and less-
           lethal force instructors must recertify every five years.

           CBP Has Acted to Address Use of Force Incidents; More Can Be Done

           CBP has taken several steps to address the number of use of force incidents. We
           also identified additional measures that CBP can take to address this issue. All
           CBP law enforcement agents and officers are required to follow a unified use of
           force policy, and CBP tracks all use of force incidents. Also, CBP conducted an
           internal review of use of force issues that resulted in several recommendations
           to improve use of force policies, training, equipment, tactics, and operational
           posture. In addition, the CBP Office of Training and Development (OTD) Use of
           Force Policy Division (UFPD) initiated a field audit program to assess the
           consistency of use of force training across CBP; however, formalization and
           expansion would improve the effectiveness of the program. Finally, CBP should
           continue to expand the use of scenario-based training and evaluate new
           technologies to support agents and officers.

           All CBP Law Enforcement Agents Required to Follow Unified Use of Force Policy

           To establish common CBP requirements regarding use of force, all CBP law
           enforcement components have operated under a unified use of force policy
           since October 2010. Prior to this, each component operated under its separate
           pre-DHS legacy use of force policy. Although the legacy policies had similarities,
           there were differences. For example, OBP agents qualified four times per year
           with their firearms, but OFO officers only qualified three times per year.

           UFPD is responsible for developing all CBP use of force policy. To create the
           unified policy, representatives from each CBP component identified the best
           practices of each legacy policy and created a draft unified policy, and in 2007,
           CBP began negotiating with the bargaining units—the National Treasury


www.oig.dhs.gov                                 11                                       OIG-13-114
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Employees Union and the National Border Patrol Council —the content of the
           proposed unified policy. CBP reached agreement with the unions in 2010; the
           unified policy then went to the CBP Commissioner for signature.

           UFPD ensures that each CBP policy, directive, and procedure describing when
           and how CBP employees use force conforms to the CBP Use of Force Policy
           Handbook. UFPD also develops, maintains, and approves all CBP use of force
           training. Under the unified policy, all CBP agents and officers are trained to the
           same standard and receive the same amount of required use of force training
           every year. For example, all CBP officers and agents now receive eight hours of
           use of force training quarterly; training includes four hours of firearms training
           and four hours of less-lethal force training each quarter. In addition, because all
           CBP instructors train to the same standard, use of force instructors from any CBP
           component can conduct use of force training for other CBP components. This
           provides CBP the ability to accommodate workforce surges or fill unexpected
           gaps.

           UFPD Tracks All Uses of Force Involving CBP Employees; Additional Data Could
           Better Inform Analysis

           To gain insight into use of force trends, training, and equipment needs, UFPD
           began tracking all use of force incidents involving CBP officers and agents in the
           Use of Force Reporting System (UFRS) in January 2010. Prior to 2010, only
           reports of serious use of force incidents were sent to the Commissioner’s
           Situation Room. The UFRS tracks detailed information about uses of force
           involving CBP agents and officers; however, it does not track information
           regarding assaults on agents and officers that do not result in the use of force.
           Being able to incorporate information regarding assaults on Federal agents that
           do not result in the use of force directly from other CBP systems, such as the e3
           Assault Module, would provide UFPD with more information on the threats
           agents face along the border and how they respond to those threats.

           Incidents involving the use of deadly force or the use of less-lethal devices must
           be reported to a supervisor within 1 hour of the incident and to UFRS within 72
           hours. The involved agent or officer must provide information about the
           incident, including but not limited to the date, time, and location of the incident;
           the firearm(s) or device(s) used; the nature and extent of injuries or deaths; and
           descriptions of subjects involved or witnesses to the incident. A CBP supervisor
           enters incident information into UFRS for deadly force incidents, and the
           involved agent or officer or a CBP supervisor for incidents involving less-lethal
           force. A CBP official said that information in UFRS is not used for discipline



www.oig.dhs.gov                                 12                                       OIG-13-114
                                                      OFFICE OF INSPECTOR GENERAL
                                                          Department of Homeland Security


           purposes. UFRS does not link to JICMS, and UFPD usually has no involvement in
           or knowledge of investigations of excessive force allegations.

           UFPD analyzes the information in UFRS to determine whether to make changes
           to use of force policies, training, tactics, or equipment. The data can be viewed
           by CBP component, type of force used, type of weapon used, sector or field
           office, or region (southwest, northern, or coastal). For example, in FY 2011,
           agents and officers reported 1,188 uses of force in UFRS (see figure 3). Of the
           1,188 uses of force, 1,029 (or 87 percent) were by OBP, 148 (or 12 percent) were
           by OFO, and 11 (or 1 percent) were by OAM. In FY 2012, agents and officers
           reported 936 uses of force in UFRS. Of these, 808 (or 86 percent) were by OBP,
           96 (or 10 percent) were by OFO, 30 (or 3 percent) were by OAM, and 2 (or 0.2
           percent) were by the Office of International Affairs.


                                               Figure 3: Use of Force by CBP Component, FY 2011
                                                                                           2011–FY
                                                                                                –FY 2012
                                            1400
                                                                                             1,188
                                            1200
                  Number of Uses of Force




                                                                               1,029
                                                                                                     936*
                                            1000
                                                                                       808
                                             800

                                             600                                                                    FY11
                                                                                                                    FY12
                                             400

                                             200                 148
                                                                       96
                                                     11 30
                                               0
                                                      OAM          OFO            OBP          Total
                                                                       CBP Component
                                                                                                     *Includes 2 from INA

             Source: CBP OTD UFPD.

           Within CBP, 95 percent (1,133 of 1,188) of FY 2011 uses of force and 95 percent
           (885 of 936) of FY 2012 uses of force occurred along the southwest border of the
           United States. For OBP, 98 percent of FY 2011 uses of force and 98 percent of FY
           2012 uses of force were along the southwest border. For OFO, 83 percent of FY
           2011 uses of force and 89 percent of FY 2012 uses of force were along the
           southwest border.

           When CBP agents and officers used force in FY 2011, they used firearms 7
           percent of the time and less-lethal force options 93 percent of the time. In FY


www.oig.dhs.gov                                                          13                                            OIG-13-114
                                                       OFFICE OF INSPECTOR GENERAL
                                                            Department of Homeland Security


           2012, they used firearms 6 percent of the time and less-lethal force options 94
           percent of the time. Within OBP, agents used firearms 7 percent of the time in
           FY 2011 and 7 percent of the time in FY 2012, less-lethal force devices 84 percent
           and 82 percent of the time, respectively, and other force 9 percent and 12
           percent of the time, respectively. For OFO, officers used firearms 7 percent and
           2 percent of the time, respectively, in FY 2011 and FY 2012, less-lethal force
           devices 78 percent and 96 percent of the time, and other force 15 percent and 2
           percent of the time. Less-lethal force devices include baton, pepper spray, taser,
           and other devices. Other force includes physical force without a weapon and the
           use of vehicles and canines. Figure 4 compares the types of force used by OBP
           and OFO during FY 2011 and FY 2012.


                                               Figure 4: Type of Force by CBP Component, FY 2011–FY 2012
                                            1200
                                                                                                          1029
                                            1000
                                                                     867
                  Number of Uses of Force




                                                                                                              808
                                             800
                                                                           662
                                             600

                                             400

                                             200                                                                   148
                                                    69 53                    115 92       93 93                          96
                                                            11 2                                   22 2
                                               0
                                                     Firearms      Less Lethal Devices    Other Force            Total

                                                   OBP FY2011      OBP FY2012         OFO FY2011      OFO FY2012

             Source: CBP OTD UFPD.

           Analysis of use of force data from UFRS provides UFPD with valuable information
           regarding the effectiveness of use of force policies, training, equipment, and
           tactics. However, including data from assaults on Federal agents that do not
           result in a use of force would provide additional valuable information. For
           example, rock attacks were the most frequent type of assault on agents in FY
           2011 and the second most frequent type of assault in FY 2012. Of 339 reported
           rock assaults in FY 2011, agents did not respond with force to 188 (or 55
           percent), responded with a firearm to 33 (or 10 percent), and used less-lethal
           force in response to 118 (or 35 percent) of the rocking assaults, respectively. Of
           185 rocking assaults in FY 2012, agents did not use force to respond to 121 (or 65


www.oig.dhs.gov                                                             14                                                OIG-13-114
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           percent), responded with a firearm to 22 (or 12 percent), and used less-lethal
           force in response to 42 (or 23 percent). Reviewing when force was used to
           respond to assaults as well as when agents did not respond with force could
           inform UFPD policy, guidance, equipment, and tactics regarding use of force in
           response to rocking or other types of assaults.

           All uses of force must be reported by the employee or a supervisor in the UFRS,
           and all assaults on Federal agents must be reported in the e3 Assault Module. If
           an agent is assaulted and responds using any type of force, the incident would be
           reported in both systems. However, assaults that do not lead to a use of force
           response would be reported only in the e3 Assault Module. Knowing when
           agents do not respond with force when assaulted and which types of force are
           used in response to different types of assaults, in addition to use of force
           information from UFRS, would provide a clearer operational picture for CBP
           management. In addition, it could identify best practices, especially regarding
           de-escalation of potential use of force situations and provide insight into specific
           types of threats, such as rockings, that place agents in potential use of force
           situations. Also, UFPD would have additional information to improve training,
           tactics, equipment, and policies involving use of force. UFPD should develop a
           process to incorporate information regarding assaults on agents that do not
           result in the use of force into its analysis of use of force incidents.

           In addition, when an assault on an agent results in the use of force and must be
           reported in both UFRS and the e3 Assault Module, similar information is
           collected about the assault in both systems. A CBP official suggested creating a
           link between the two systems to facilitate entering the information and ensure
           reports are made in both systems when necessary. Developing a link between
           the systems could remind agents to complete reports in both places when
           appropriate and could ensure that assault information required by both systems
           is entered consistently. Also, it could facilitate the incorporation of non-
           response assault data into use of force incident analysis.

           Recommendation

           We recommend that U.S. Customs and Border Protection:

           Recommendation #2:

           Develop a process to incorporate information regarding assaults on agents that
           did not result in agents using force into its analysis of use of force incidents.




www.oig.dhs.gov                                15                                       OIG-13-114
                               OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           CBP Initiated Internal Review of Use of Force Issues

           Following several deadly force incidents, CBP initiated its own internal review of
           use of force issues in November 2012. The review included three parts—field
           reviews of select incidents by the CBP Use of Force Incident Review Team,
           reviews of 67 shooting incidents by the Use of Force Incident Review Committee,
           and an external review of the 67 incidents and CBP use of force policies by the
           Police Executive Research Forum. The review focused on the effectiveness of
           current use of force policies, equipment, tactics, training, and operational
           posture. CBP’s review made recommendations, and PERF’s review made ,
           to

           CBP OTD made           recommendations including



                                                    CBP OTD also recommended


                                                             Other recommendations
           include


                           .

           PERF
                                                    . Also, PERF

                                                             . PERF also made
           recommendations
                                                                                            .
           In addition, PERF recommended


                                    . Currently, the CBP OTD and PERF recommendations
           are under consideration for approval by the Acting CBP Commissioner.

           UFPD Initiated Field Audit Program; Needs More Formalization and Expansion

           In FY 2012, UFPD implemented a field audit program to assess use of force
           training. The program determines whether training is consistent with CBP policy,
           instructor guidebooks and lesson plans, and the intent of the less-lethal force


www.oig.dhs.gov                                16                                      OIG-13-114
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           and firearms training programs, as well as whether safety protocols are followed.
           Each field audit may result in recommendations for corrective action to both the
           Office of Training and Development and the audited field location. While the
           UFPD field audit program is a good first step for UFPD management to assess
           whether use of force training in the field is consistent with use of force policy,
           there is no formal process for recommendation followup, no system to assess
           results and make appropriate timely changes to use of force training, and not
           enough program staff.

           When conducting a field audit, three-person teams from UFPD spend three days
           at each location observing quarterly firearms and less-lethal force training and
           identifying strengths, weaknesses, and necessary changes. The audit team
           provides oral feedback to instructors and training coordinators at each location
           to correct issues observed during the audit. Following the field audit, the team
           lead prepares a report including recommendations for corrective actions. UFPD
           sends the report to the audited location and follows up by telephone with the
           inspected office to discuss planned actions for addressing recommendations.

           We observed a field audit team conduct a field audit in February 2013. At that
           time, only one agent was dedicated full-time to the UFPD field audit program. A
           senior CBP official said that additional staff would strengthen the field audit
           program.

           UFPD identified several major issues during its 2012 field audits. For example,
           some locations were not getting the full number of required training hours, were
           not giving written tests during less-lethal force recertification training, or were
           not using the correct course of fire for firearms qualifications. UFPD advised
           instructors and training coordinators at respective locations to correct specific
           issues. Issues observed at one location are typically corrected only at that
           location because there is no formal process to evaluate audit results.

           The UFPD field audit team observed that many agents and officers do not
           understand use of force and the extent to which they may or may not use force.
           The field audit team recommended to OTD
                                                   and suggested that

                                                                                       The
           team also recommended




www.oig.dhs.gov                                17                                       OIG-13-114
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           CBP has noted in its formal comments that, of the 32 field training reviews
           conducted to date, this was observed only once, at one location and involved a
           small number of agents on one training day.

           Developing a process to identify this type of issue, implement changes into use
           of force training, and disseminate them to the field would improve consistency
           and standardization regarding use of force across CBP. Formalizing and
           expanding the field audit program will require additional staff.

           Recommendation

           We recommend that U.S. Customs and Border Protection:

           Recommendation #3:

           Develop a formal process to evaluate use of force training field audit results and
           follow up on field audit recommendations.

           CBP Should Continue To Expand Use of Scenario-based Training

           Scenario-based training provides agents and officers the opportunity for hands-
           on practice. Training scenarios reinforce classroom instruction regarding use of
           force policy, tactics, and justifications. Within the safety of a training
           environment, they experience realistic situations in which they must decide
           whether to use force and at what level, and then justify their actions. To ensure
           that agents and officers are sufficiently trained to confront threats, CBP should
           continue to expand scenario-based training, including developing scenarios
           around high-risk threats such as vehicular and rock assaults, adding training in
           low-light conditions, and creating new realistic training environments.

           Training scenarios allow agents to practice making appropriate use of force
           judgments as they handle the situation. They also learn the importance of and
           practice articulating their response to the situation and justification for the level
           of force used. In addition, instructors emphasize that choosing appropriate
           tactics initially can de-escalate the situation and stop it from becoming a deadly
           force incident. Successfully completing a scenario creates an experience
           memory that could be useful should a similar “real life” situation arise.

           Less-lethal force and firearms instructors learn how to create, run, and debrief
           training scenarios during instructor certification courses at the CBP Advanced
           Training Center. They are encouraged to create training scenarios that represent
           realistic situations agents could encounter in their specific locations. Possible


www.oig.dhs.gov                                 18                                        OIG-13-114
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           scenarios could include a single agent while on patrol encountering a large group
           of illegal aliens, responding to a report of people climbing the border fence, or
           responding to a port of entry regarding a car with a license plate matching a
           lookout notice.

           CBP is assessing ways to improve use of force training. To provide a new and
           more realistic southwest border training environment, CBP plans to build a mock
           international border fence training area at both the CBP Advanced Training
           Center and the Border Patrol Academy. This would enable CBP to conduct
           scenario-based training in a realistic field environment that many agents
           encounter during their careers. CBP has the materials needed to build the
           border fence training areas; however, due to budget constraints, CBP is
           reassessing when to build the fences.

           During its internal review of use of force issues, UFPD determined that CBP basic
           academies do not train new agents and officers on all less-lethal options that will
           be available to them. UFPD also identified high-risk situations, such as vehicular
           and rock assaults, that are not sufficiently trained at the basic academies.

           In addition, several officials said the use of scenario-based training should be
           increased during basic training, especially at the Border Patrol Academy. They
           said trainees leave the Border Patrol Academy with the necessary tools and
           tactics, but are not fully prepared for possible real-life situations they might
           encounter. For example, one official said trainees do not have the opportunity
           in a training environment to experience how they might react in an encounter in
           the field and practice working through their stress or fear reaction. CBP officials
           said that by experiencing possible scenarios and reactions in a training
           environment, trainees are better prepared for any situation they encounter in
           the field. We agree with suggestions to increase scenario-based training at the
           basic academies.

           CBP Assesses New Technology To Ensure Field Agents Have the Right Tools

           CBP continuously assesses new lethal and less-lethal equipment technology,
           tactics, and training to ensure that agents and officers have the skills and tools
           when needed. Currently, UFPD officials are emphasizing less-lethal tools and
           trying to increase safety for both the agents and subjects involved in encounters
           that result in agent’s use of force. In addition, officials are assessing training
           environments and adding simulator equipment to improve the effectiveness and
           consistency of use of force training across CBP.




www.oig.dhs.gov                                19                                       OIG-13-114
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Given different operational environments along the border, CBP has made
           multiple less-lethal options available to agents. For example, there are several
           different less-lethal devices that will deploy pepper spray or pepper ball
           chemicals to immobilize subjects. These tools are effective from varying
           distances and some deploy straight whereas others are able to arc over objects.
           Devices capable of arcing are more effective in border areas separated by a
           border fence, and devices that do not arc would be effective along areas of the
           border separated by river or where there are no line-of-sight obstacles. CBP is
           assessing other less-lethal options that would allow an agent to deploy a less-
           lethal device effectively from a greater distance.

           Finally, CBP is evaluating the use of simulators, which can encompass all of use of
           force training, including training scenarios and firearms targeting and
           marksmanship. Using simulators for some scenario-based training would allow
           an instructor to freeze an ongoing scenario to allow an agent to review or discuss
           policy or the agent’s action at specific decision points in the scenario as well as
           recording and replaying the agent’s actions during the post-scenario debrief. In
           addition, because UFPD identifies use of force trends, incorporating simulators
           into use of force training would allow UFPD to create scenarios at the Advanced
           Training Center and disseminate them for use in the field. While field instructors
           would continue to develop location-specific live scenarios, adding UFPD-created
           training scenarios, especially in simulators, would reinforce standardization and
           consistency across CBP. It would also allow UFPD to create a scenario based on
           recent trends and implement it in the field quickly.

           CBP is moving forward to incorporate simulator training as part of use of force
           training. After observing demonstrations of several different simulators on the
           market, UFPD officials selected several for in-depth testing at the Advanced
           Training Center. In the current testing phase, UFPD officials set up each
           simulator at the Advanced Training Center, learn how to run the systems, and
           practice with each to determine its benefits, drawbacks, and how it could
           support CBP training needs. During the testing, UFPD officials are prioritizing
           requirements for the simulator system CBP will acquire. UFPD officials hope to
           acquire one simulator for the CBP Advanced Training Center and incorporate it
           into training classes by the end of FY 2013. Officials expect to spend about six
           months creating scenarios, running students through scenarios, and assessing
           the effectiveness of the simulator before placing simulators in the field. We
           observed instructor-led scenario-based training and demonstrations of two
           simulators. We concluded that the simulator has the potential to enhance the
           quality of CBP agent and officer training.




www.oig.dhs.gov                                20                                      OIG-13-114
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Polygraphs Improve Quality of Workforce


           In 2008, CBP Internal Affairs began implementing a requirement that CBP
           conduct polygraph examinations of all prospective CBP law enforcement agents
           and officers by January 2013. When CBP began the polygraph program,
           approximately half of prospective agents or officers failed the examination.
           According to one CBP official, polygraphing 100 percent of prospective law
           enforcement agents and officers identifies and eliminates applicants who should
           not be in law enforcement. Pre-employment polygraphs have improved the
           quality of the workforce. CBP Internal Affairs implemented the mandate well
           before the deadline and has been polygraphing 100 percent of law enforcement
           applicants since mid-2012.

           Management Comments and OIG Analysis

           We evaluated the formal comments CBP submitted and have made changes to
           the report where we deemed appropriate. A summary of the CBP response to
           each recommendation, and our analysis, is included below. A copy of the CBP
           response, in its entirety, appears in appendix B. In addition, we received
           technical comments from CBP and the DHS Office for Civil Rights and Civil
           Liberties and incorporated these comments into the report where appropriate.
           CBP concurred with all recommendations in the report.

           Recommendation 1: Work with ICE to implement a method in JICMS to identify
           each use of force allegation involving an officer or agent.

           Management Response: CBP concurs. The CBP Office of Internal Affairs, in
           collaboration with the CBP Office of Training and Development (OTD)/Use of
           Force Policy Division (UFPD) and Immigration and Customs Enforcement
           (ICE)/Office of Professional Responsibility, are developing a "menu" of categories
           in the Joint Integrity Case Management System (JICMS) to help identify each use
           of force incident or allegation involving an officer or agent.

           OIG Analysis: The actions planned by ICE and CBP appear to be consistent with
           the intent of the recommendation. Only when we examine the new JICMS
           structure will we be able to determine if compliance has been achieved. We
           consider recommendation 1 Resolved-Open.

           Recommendation 2: Develop a process to incorporate information regarding
           assaults on agents that did not result in agents using force into its analysis of use
           of force incidents.



www.oig.dhs.gov                                 21                                        OIG-13-114
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Management Response: CBP concurs. The addition of assault data where force
           was not used by the officer/agent will provide a baseline to compare with
           incidents where force was used by the officer/agent. This data will provide a
           broader understanding of how use of force decisions are being made as well as
           the effectiveness of use of force training and policy. OTD/UFPD will work closely
           with other CBP offices to use and cross-reference this information. Initially, CBP
           will coordinate internally to ensure the owners of the different assault data
           collection systems and the Use of Force Reporting System share and analyze
           data. Long term, CBP will link these systems electronically so that this data is
           easily accessible and may be used to provide comprehensive use of force
           analysis to include assaults that did not result in a use of force by a CBP agent or
           officer. CBP will have internal coordination between system owners in place by
           the end of the first quarter, Fiscal Year 2014 (FY14) and, barring any delays
           caused by limited resources, will have the systems connected electronically by
           the end of FY14.

           OIG Analysis: The actions planned by CBP appear to be consistent with the
           intent of the recommendation. Only when we examine the results of the CBP
           process modifications will we be able to determine if compliance has been
           achieved. We consider recommendation 2 Resolved-Open.

           Recommendation 3: Develop a formal process to evaluate use of force training
           field audit results and follow up on field audit recommendations.

           Management Response: CBP concurs. OTD/UFPD has conducted field training
           reviews at 32 locations since February 2012. Although a relatively new practice,
           these reviews have been extremely effective in identifying strengths,
           weaknesses, best practices, and providing general oversight of CBP's use of force
           training. The program was a proactive step implemented by CBP to improve
           field training, and we agree that further expansion of the program will only
           improve it. CBP is updating Use of Force policy to institutionalize the formal
           process governing use of force training reviews. CBP is developing and
           formalizing a Standard Operating Procedure that provides guidance for
           evaluating field review results and implementing review recommendations. An
           initial draft of the Standard Operating Procedure will be completed by the end of
           the 2nd quarter FY14. In addition, CBP is developing the capability to conduct
           more comprehensive quantitative and qualitative analyses of use of force
           incident reviews with the establishment of the Use of Force Center of Excellence
           (UFCE). Barring any delays caused by limited resources, CBP expects to have the
           UFCE established and this capability operational during FY14.




www.oig.dhs.gov                                 22                                       OIG-13-114
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


           OIG Analysis: The actions planned by CBP appear to be consistent with the
           intent of the recommendation. We will we determine if compliance has been
           achieved after reviewing the results of the CBP program changes. We consider
           recommendation 3 Resolved-Open.




www.oig.dhs.gov                              23                                    OIG-13-114
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   In May 2012, Senator Robert Menendez and 15 members of Congress asked that we
   review incidents involving the use of force by CBP employees. Specifically, our
   objectives were to (1) examine and summarize reports of investigation alleging brutality
   and use of excessive force by CBP employees, (2) determine what reforms DHS has
   implemented to address the number of incidents involving the use of force by CBP
   employees, and (3) determine what effect adding more agents and officers to the
   workforce has had on training and professionalism.

   We conducted our fieldwork between September 2012 and April 2013. We reviewed
   current and former use of force policies, directives, and handbooks; use of force training
   curricula, guidebooks, schedules, and funding; and three OIG reports of investigation. In
   addition, we reviewed and analyzed data on excessive force and abuse allegations and
   investigations, intentional discharges of a weapon, staffing numbers of CBP agents and
   officers, use of force incidents within CBP, deadly force incidents within CBP, assaults on
   Border Patrol Agents, and numbers of OBP and OFO basic academy trainees and
   graduates. We also reviewed UFPD field audit reports, CBP use of force self-inspection
   records, and the results of a CBP internal review of use of force issues that included an
   external assessment of significant use of force shooting incidents by the Police Executive
   Research Forum.

   We conducted 40 meetings with 85 officials within DHS, CBP, the Department of Justice,
   the Mexican Embassy, and nongovernmental organizations. We visited the CBP
   Advanced Training Center in Harpers Ferry, West Virginia, four times to observe less-
   lethal force and firearms use of force training and equipment. We also conducted a site
   visit to San Diego, California. During our site visit, we met with OBP officials and
   observed a UFPD field audit team conducting an audit of OBP and OFO use of force
   training.

   We conducted this review under the authority of the Inspector General Act of 1978, as
   amended, and according to the Quality Standards for Inspections issued by the Council
   of the Inspectors General on Integrity and Efficiency.



www.oig.dhs.gov                                24                                      OIG-13-114
                     g          .
                                    .
                                        OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                                          J 300 Pennsylvania /\venue NW
                                                                                          Washingwn, DC 20229



                                                                                          U.S. Customs and
                                                                                          Border Protection
              August 9, 2013




              MEMORANDUM FOR:                Charles. K . Edwards
                                             Deputy Inspector General
                                             Department of Homeland Security

                                                                                            Affairs~J~ .11.
              FROM:                          Assistant CoJrunissioner, Office ofl nternal
                                             U.S. Customs and Border Protection                   yVV '~"""'"~            7f:? ·

              SUBJECT:                       Response to the Office oflnspector General's Draft Report "CRP
                                             Use of Force Train ing and Actions to Address Use ofForce
                                             incidents "


              Thank you tor the opportunity to review and provide comment on this draft report entitled, "CBP
              Use of Force Training and Actions to Address u~·e ofForce incidents" (OJG-12-160-JSP-CBP).

              U.S. C ustoms and Dorder Protection (CDP} appreciates the acknowledgement of CDP's
              continued commitment to our workforce. As highlighted in the report, CBP's workforce surge
              did not affect use of force training but in fact, training remained consistent Also, the
              in: plementation of the polygraph examinations for all prospective law enforcement agents and
              officers has improved the quality of the CBP workforce by detecting unsuitable candidates. The
              report also recognizes the steps taken by CBP to address use of force incidents involving CDP
              employees, for instance: ( I) completing an internal review of use of force issues; (2) beginni ng
              the tracking of all use of force incidents; (3) improving consistency in training fo r agents and
              officers, and the application of use of force standards and policies; and (4) initiating a field audit
              program to evaluate training across CHP field locations.

              The report mentions a number of agents and officers were unfamiliar with the use of force policy
              and the extent to which they may usc force. CBP would like to note, of the 32 fi eld training
              reviews conducTed to date, this was observed o nly once, at one location and involved a small
              number of agents on one training day. Jn that instance, field review team personnel took
              immediate action with the field instructors to address the problem and later to !lowed up with a
              wrilten after a<:tion report and verbal disnrssinns wi lh that location' s training per~n nnd . This
              case illustrates the value and effectiveness of these fi eld reviews.




www.oig.dhs.gov                                                   25                                                               OIG-13-114
                     g          .
                                    .
                                        OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




              The draft report contains three recommendations directed to CBP, with which we concur.
              Specifically, OIG recommended that:

              Rt!commt!ndatinn 1: Work with ICF: to implement a method in .IICMS to identify each use of
              force allegation involving an uffil:er or agent

              Response: CDP concurs. The CDP Office oflntemal Affairs, in collaboration with the CDP
              Office of Training and Development (OTD)/Cse offorce Policy Division (Uf PD) and
              Immigration and Customs Enforcement (ICE)!Offiec of Professional Responsibility, are
              developing a "menu" of categories in the Joint Integrity Case Management System (JTCMS) to
              help identity each use of torce incident or allegation involving an ofticer or agent. CBP and ICE
              are looking at a tentative JICMS release date of August 24, 2013.

              Recommendation 2: Develop a process to incorporate information regarding assaults on agents
              that did not result in agents using force into its analysis of use of force incidents.

              Response: CBP concurs. The addition of assault data where force was not used by the
              officer/agent VI~ II provide a baseline to compare with incidents where force was used by the
              officer/agent. This will provide a broader umlersta mling of how use of forl:e dedsions are being
              made in tl1e field as well as the effecli veness of use of force training and policy. The
              OTD/UFPD w ill work closely with other CDP offices to utilize and cross· reference tltis
              information.

              Initially, CBP will coordinate internally to ensure the owners of the different assault data
              collection systems and the Use of Force Reporting System share and analyze data. Long term,
              CBP will link these systems electronically so that this data is easily accessible and may be used
              to provide comprehensive use of force analysis to include assaults that did not result in a use of
              force by a CDP agent or officer. CDP will have internal coordination between system owners in
              place by the end of the first quarter, Fiscal Year 2014 (FYI4) and, barring any delays caused by
              limited resources, will have the systems connected electronically by the end of FYI4.

              Recommendation 3 : Develop a formal process to evaluate use of force training field audit
              results and follow up on field audit recommendations.

              Response: CDP concurs. The OTD/llFPD has conducted field training reviews at 32 locations
              since February 2012. Although a r elatively new practice, these reviews have heen extremely
              effecti ve in identifying strengths, weakm:sses, best practices, and providing general oversight of
              CBP's use afforce training. The program was a proactive step implemented by CDP to improve
              field training and we agree that further expansion of the program will only improve it.




www.oig.dhs.gov                                                 26                                                  OIG-13-114
                     g          .
                                    .
                                        OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




              CBP is updating Use of Force policy to institutionalize the formal process governing use offorce
              training reviews. C:RP is developing and fonnali7.ing a Standard Operating Procedure that
              provides guidance for ~:valuating fi eld revit:w results and impkmenting rt:view
              recommendations. ."l.ll initial draft of the Standard Operating Procedure will be completed by
              the end of the 2nd qurut er FY14. In addition, CBP is developing the capability to conduct more
              robust quantitative and qualitative analysis of usc of force incident reviews with the
              establishment of the Usc of Force Center of Excellence (UFCE). Barring any delays caused by
              limited resources, CBP expects to have the UFCE established 1111d this capability operational
              during FYI4.

              Alihough not specified as formal recommendations, we also agree with the OIG's
              recommendation that we should continue to expand the use of scenario-based training and
              continue to pursue new technologies to ensure field agents have the right sldlls and tools when
              needed.

              C:RP is committed to tht: w ntinual improvement of our ust: uf for~.:c:: programs, and will work
              with our u1ternal components and DHS pattners to implement the reconunendations.




www.oig.dhs.gov                                                  27                                              OIG-13-114
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix C
   Major Contributors to This Report
   William McCarron, Chief Inspector
   Douglas Ellice, Chief Inspector
   Jennifer A. Lindsey, Lead Inspector
   Tanya Suggs, Inspector
   Anne Cho, Inspector
   Ryan P. Cassidy, Inspector




www.oig.dhs.gov                             28                    OIG-13-114
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   CBP Liaison
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                 29                         OIG-13-114
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
